No. 20-8335
IN THE SUPREME COURT OF THE UNITED STATES

GEORGE A. CHRISTIAN, JR.,
Petitioner,
vs.
THE STATE OF OKLAHOMA,
Respondent.
CERTIFICATE OF SERVICE

I, Julie Pittman, a member of the Bar of this Court, hereby certifies that one
copy of the Brief in Opposition was electronically filed with the Clerk of this Court
and mailed by first-class, postage prepaid mail, to this Court and to Petitioner, who
appears pro se before this Court:
George A. Christian, Jr., #276900
Lexington Correctional Center
P.O. Box 260
Lexington, OK 73051
s/ Julie Pittman
JULIE PITTMAN
ASSISTANT ATTORNEY GENERAL
Dated: September 15, 2021

